No. 20-382
In the Supreme Court of the United
__________________

States

GOVERNMENT OF GUAM,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
__________________
On Writ of Certiorari to the
United States Court of Appeals
for the District of Columbia

__________________
BRIEF FOR ATLANTIC RICHFIELD COMPANY
AS AMICUS CURIAE IN SUPPORT OF
RESPONDENT
__________________
ELISABETH S. THEODORE
STEPHEN K. WIRTH
ARNOLD & PORTER KAYE
SCHOLER LLP
601 Massachusetts Ave.
NW
Washington, DC 20001
(202) 942-5000

SHANNON WELLS STEVENSON
Counsel of Record
KENZO S. KAWANABE
BENJAMIN B. STRAWN
ADITI KULKARNI-KNIGHT
DAVIS GRAHAM & STUBBS LLP
1550 17th St., Suite 500
Denver, CO 80202
(303) 892-9400
shannon.stevenson@dgslaw.com

Counsel for Amicus Curiae
March 31, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES....................................... ii
INTEREST OF THE AMICUS CURIAE................... 1
INTRODUCTION AND SUMMARY OF ARGUMENT ......................................................................... 3
ARGUMENT .............................................................. 6
I. The United States’ Proposed Rule Provides Critical Clarity and Consistency to Private Parties
With Potential Contribution Liability ................. 6
II. Guam’s Proposed Rule Will Undermine the PurPoses of CERCLA’s Statute of Limitations for
Contribution Claims ........................................... 14
CONCLUSION ......................................................... 22

ii
CASES

TABLE OF AUTHORITIES

Asarco LLC v. Atl. Richfield Co.,
866 F.3d 1108 (9th Cir. 2017) ................ 8, 9, 10, 17
Atlantic Richfield Co. v. Christian,
140 S. Ct. 1335 (2020) ............................................1
Bernstein v. Bankert,
733 F.3d 190 (7th Cir. 2012) ........................ 7, 8, 17
Bowsher v. Merck & Co.,
460 U.S. 824 (1983) .............................................. 13
Fla. Dep’t of Revenue v. Piccadilly Cafeterias,
Inc., 554 U.S. 33 (2008) ........................................ 13
Fla. Power Corp. v. FirstEnergy Corp.,
810 F.3d 996 (6th Cir. 2015) ...................... 8, 17, 20
ITT Indus. v. BorgWarner, Inc.,
506 F.3d 452 (6th Cir. 2007) ..................................8
Morrison Enters., LLC v. Dravo Corp.,
638 F.3d 594 (8th Cir. 2011) ................................ 20
Refined Metals Corp. v. NL Indus.,
937 F.3d 928 (7th Cir. 2019) .............................. 8, 9
United States v. Marion,
404 U.S. 307 (1971) .............................................. 14

iii
STATUTES
42 U.S.C. § 9613(f)(3)(B) ................................... passim
42 U.S.C. § 9613(g)(2)............................................... 16
REGULATIONS
63 Fed. Reg. 8473 (Feb. 19, 1998) ...............................9
OTHER AUTHORITES
H.R. Rep. No. 99-253 (1985), reprinted in 1986
U.S.C.C.A.N. 2835.......................................... 20, 21

1
INTEREST OF THE AMICUS CURIAE
Atlantic Richfield Company has a significant interest in how this Court interprets section 113 of the
Comprehensive Environmental Response, Compensation, and Liability Act of 1980 (“CERCLA”). 1 In 1977,
Atlantic Richfield acquired and later merged with The
Anaconda Company, which for decades had operated
copper and other mining and mineral processing sites
throughout the United States. As a consequence, Atlantic Richfield found itself inheriting responsibility
for cleaning up pollution in cooperation with the Environmental Protection Agency (“EPA”) at CERCLA
“Superfund” sites across the country. Atlantic Richfield was a party to this Court’s most recent decision
involving CERCLA, Atlantic Richfield Co. v. Christian, 140 S. Ct. 1335 (2020). And Atlantic Richfield is
also both the proponent and the target of contribution
claims under § 113(f)(3)(B) of CERCLA for and
against other private parties involved with cleanups
at polluted sites. As both a party seeking contribution,
and a party from whom contribution is sought, Atlantic Richfield has substantial financial and legal interests in the resolution of this case and an important,
balanced perspective on the consequences the Court’s
ruling will have for private parties involved in environmental cleanups.
Atlantic Richfield also has a related case pending
in this Court, Atlantic Richfield Co. v. Asarco LLC,
Case No. 20-1142, the outcome of which will turn on
the Court’s decision here. Atlantic Richfield’s case involves a lead smelting facility at the East Helena
All parties consented to the filing of this brief. Counsel for Atlantic Richfield authored this brief in whole. No one other than
Atlantic Richfield funded the preparation of the brief.
1

2
Superfund Site in Montana that plaintiff Asarco and
its predecessors owned and operated for more than
100 years. Atlantic Richfield’s predecessor Anaconda
had leased land from Asarco at the site to operate a
zinc fuming plant between 1927 and 1972, and then
sold the plant to Asarco, which continued to operate it
for another decade. In 1998, Asarco entered a judicially approved Consent Decree with EPA that required it to perform a comprehensive cleanup at East
Helena (“1998 Consent Decree”). But Asarco failed to
perform the cleanup and entered bankruptcy in 2005.
To resolve EPA’s claims in the bankruptcy, Asarco
committed to fund its obligations under the 1998 Consent Decree and turned the remediation over to a custodial trustee. In 2012—fourteen years after promising to clean up the site—Asarco brought a contribution claim against Atlantic Richfield.
Atlantic Richfield argued that the three-year statute of limitations in CERCLA § 113 barred Asarco’s
contribution claim because Asarco had “resolved” its
“liability for some or all of a response action” in its
1998 Consent Decree. The district court agreed and
dismissed Asarco’s claim. But the Ninth Circuit reversed, holding that the 1998 Consent Decree, while
requiring Asarco to perform multiple response actions, did not “resolve [Asarco’s] liability” for some or
all of a response action because one paragraph of the
Decree released claims for civil penalties without releasing claims for injunctive relief. On remand, Asarco
obtained a multi-million-dollar judgment against Atlantic Richfield based on its 14-year-old claim. Atlantic Richfield has now petitioned for certiorari and
asked this Court to hold the petition pending the decision in this case. See No. 20-1142.

3
If this Court adopts the United States’ proposed
interpretation of § 113(f)(3)(B), Atlantic Richfield will
prevail on remand in the Ninth Circuit. The United
States correctly contends that “[a] settlement resolves
a person’s liability for a response action (or response
costs) if it definitively requires the person to perform
(or pay for) that action.” U.S. Br. 11. It is undisputed
that Asarco’s 1998 Consent Decree did just that.
Atlantic Richfield thus has a direct interest in the
outcome of this case. And Atlantic Richfield’s case—as
well as Atlantic Richfield’s experience with CERCLA
contribution claims more generally—provides an essential perspective that is missing in this dispute between two government actors: that of private parties
which are most often subject to CERCLA contribution
claims.
In particular, Atlantic Richfield’s case underscores the adverse effects of Guam’s proposed approach to § 113(f)(3)(B). It illustrates that deciding
whether a party has resolved its liability based on the
nuances of release language in a settlement agreement leads to unpredictable and inequitable results.
And it illustrates the significant unfairness in letting
contribution claims linger, with no statute of limitations running, even after a party has agreed to perform or pay for environmental cleanup in a settlement
with the United States or a State. This brief will accordingly aid the Court in interpreting the words “resolve [its] liability.”
INTRODUCTION AND
SUMMARY OF ARGUMENT
The fundamental policy objectives of CERCLA are
to promote timely cleanup of contaminated Sites and

4
to ensure that parties that caused contamination pay
for its cleanup. The fundamental policy objective of a
statute of limitations is to ensure that claims are
promptly pursued so that parties have certainty and
access to relevant evidence.
As Atlantic Richfield’s case and others illustrate,
Guam’s proposed rule undermines all of these policies.
It will lead to uncertainty regarding parties’ rights to
contribution, and it will allow settling parties to delay
indefinitely before pursuing contribution, prejudicing
non-settling PRPs and jeopardizing the availability of
the evidence necessary to fairly determine parties’ relative contributions.
First, the facts of Atlantic Richfield’s case illustrate the folly of deciding whether a party has resolved
its liability based on the nuances of the specific terms
of a particular settlement agreement. Adopting a rule
that allows different results based on immaterial differences in parties’ respective settlement agreements
will create uncertainty as to when parties have a right
to seek contribution, and as to when their statutes of
limitations have run. That uncertainty, in turn, will
frustrate CERCLA’s goal of incentivizing early settlements to fund environmental cleanups. All parties
would benefit from a simple test to determine when a
CERCLA contribution claim arises and the statute of
limitations on that claim begins to run.
Second, Atlantic Richfield’s case illustrates the
problems caused by letting contribution claims linger
with no statute of limitations running. Statutes of limitations exist to ensure certainty about parties’ potential liabilities and access to the witnesses and evidence necessary to fairly decide cases. By the time

5
Asarco filed its complaint in 2012, forty years had
passed since Atlantic Richfield had conducted any operations at the Site; thirty years had passed since EPA
started its investigation of the Site; and fourteen
years had passed since Asarco had entered a judicially
approved settlement with EPA, in which Asarco promised to perform a complete and comprehensive
cleanup of the Site. By the time the case was finally
tried in 2018, Atlantic Richfield was handicapped by
its inability to undertake its own investigation of the
Site before significant remedial work was done, as
well as its limited access to witnesses and documents.
In light of these considerations, Atlantic Richfield
urges the Court to adopt the United States’ position
and hold that a party has “resolved [its] liability” for
a specific response action when it enters a judicially
approved settlement that conclusively determines its
obligation to perform or pay for that response action.
This simple rule will promote certainty regarding the
existence of contribution claims, as well as the timely
resolution of those claims. Because many remediations take place in phases, however, the Court should
make sure to clarify that a party that settles its responsibility for one particular response action or part
of a response action—for example, cleaning up one
portion of a site—does not trigger the statute of limitations for contribution for other response actions it
has not yet agreed to perform or pay for in its settlement agreement.

6
I.

ARGUMENT
The United States’ Proposed Rule Provides
Critical Clarity and Consistency to Private
Parties With Potential Contribution Liability.

The United States urges the Court to adopt a
straightforward rule: when a party enters a judicially
approved settlement agreement that conclusively determines the party’s obligation to perform a particular
response action, the party has resolved its liability for
that response action and has a right to seek contribution for it. If the parties have entered into a “conclusive agreement about what [one] party must do,” U.S.
Br. 38, the settlement has resolved that party’s liability for at least “some” of a response action.
By contrast, Guam urges this Court to hold that
whether a party has “resolved its liability” is a recordintensive inquiry that requires examining lengthy settlement documents and evaluating myriad provisions,
including the existence and extent of any “release,”
the contours of any reservations of rights, the extent
of a party’s admission of liability, and presumably
many other provisions that might appear in a settlement agreement. Pet. Br. 41. Indeed, Guam argues
that any of many “magic words” can defeat the resolution of liability, including disclaimers or non-admissions of liability; reservations of rights by EPA to enforce compliance with the agreement, to require the
Potentially Responsible Party (“PRP”) to take additional response actions not addressed in the agreement, or to ensure the PRP complies with other applicable laws; or release terms that provide less than a

7
complete release for the PRP, or delay such release
until the PRP’s work is complete.
The Court should adopt the clear, bright-line rule
proposed by the United States. That rule is consistent
with the statutory text, U.S Br. 34-38, and advances
CERCLA’s underlying purposes. And the rule offers
critical advantages to the private sector parties who
most often find themselves at odds over CERCLA contribution claims. It offers certainty and predictability,
not only to parties asserting claims for contribution,
but also for third parties who have potential liability
for a site and must evaluate their own exposure to contribution claims based on agreements to which they
are not parties and over which they have no say.
It is easy to figure out whether a PRP has committed to EPA that it will undertake a particular response action: the consent decree will say so on its
face. Thus, for example, no one disputes that Guam
conclusively agreed to undertake response actions in
its settlement with the EPA. Likewise, in Atlantic
Richfield’s dispute with Asarco, no one disputes that
Asarco conclusively agreed to undertake particular
cleanup activities—response actions—in the 1998
Consent Decree. A PRP that enters such a settlement
will know when its right to contribution arises and expires under the United States’ rule with perfect clarity. Likewise, a third party like Atlantic Richfield will
know when the time has passed for a settling PRP to
pursue contribution claims; it will not be perpetually
waiting for the hammer to drop.
Guam’s proposed rule, by contrast, is exceptionally malleable and unpredictable. Cases from courts

8
applying that rule or versions of it illustrate as
much—as Guam put it in its petition for certiorari, the
courts are “expressly divided” on what sort of language in a Consent Decree or settlement defeats contribution. Pet. 17. Thus, for example, the Seventh Circuit held in one case that a settlement did not resolve
liability within the meaning of § 113(f) because it did
not “immediately resolv[e] all liability,” Bernstein v.
Bankert, 733 F.3d 190, 213 (7th Cir. 2012), while concluding in another case that a covenant not to sue did
resolve a party’s liability even though it was “not comprehensive,” see Refined Metals Corp. v. NL Indus.,
937 F.3d 928, 931 (7th Cir. 2019); see also Fla. Power
Corp. v. FirstEnergy Corp., 810 F.3d 996, 1004 (6th
Cir. 2015) (holding a consent order stating satisfaction
of its requirements “shall . . . resolve” the responsible
party’s “liability to EPA” nevertheless did not resolve
“some or all” of that party’s liability for purposes of
§ 113(f) because of the “context in which the reference
[to resolution of liability] [was] made”); ITT Indus. v.
BorgWarner, Inc., 506 F.3d 452, 459-60 (6th Cir. 2007)
(holding liability was not resolved where EPA had reserved the right to adjudicate liability for failure to
comply with the terms of the settlement agreement itself).
In Atlantic Richfield’s case, the Ninth Circuit followed a basic approach similar to that advocated by
Guam. The court first acknowledged that Asarco’s
1998 Consent Decree “clearly required Asarco to take
response actions to clean up hazardous waste at the
Site,” Asarco LLC v. Atl. Richfield Co., 866 F.3d 1108,
1114 (9th Cir. 2017), meaning that it would have triggered the statute of limitations under the rule the
United States proposes. But the court held that

9
Asarco’s agreement to undertake response actions
was not enough, and instead engaged in an intensive
analysis of various collateral provisions of the settlement agreement—agreeing with its sister circuits
about the import of certain particular terms, and disagreeing about others. For example, the Ninth Circuit
rejected the Sixth Circuit’s conclusion in ITT that a
reservation of the right to enforce the settlement itself
defeated contribution. But the Ninth Circuit also rejected the Seventh Circuit’s conclusion in Refined Metals that a settlement release need not be “comprehensive” to trigger contribution.
Ultimately, the Ninth Circuit held that Asarco’s
1998 Consent Decree did not trigger contribution because Paragraph 209 of the Decree released only
claims for civil penalties, but not claims for injunctive
relief. Asarco, 866 F.3d at 1126 (noting that Paragraph 209 “is expressly limited to liability with regards to the United States’ claims for civil penalties”).
But Paragraph 214 of the agreement barred EPA from
initiating “a separate action under Sections 3008(h)
and 3013 of RCRA … for work to be performed at the
Facility,” App. 252, ¶ 214 2; in other words, EPA did
release its claims for injunctive relief so long as Asarco
performed the corrective action work it agreed to undertake. 3

“App.” citations refer to Atlantic Richfield’s appendix to its Petition for Certiorari in Atlantic Richfield Co. v. Asarco LLC, Case
No. 20-1142.
2

Lest there be any doubt, EPA confirmed this when it published
its Public Notice of the Consent Decree in the Federal Register,
explaining that the decree “resolve[d] civil penalty and injunctive
3

10
The Ninth Circuit further opined that the Consent Decree did not trigger contribution because it
contained assorted “references to Asarco’s continued
legal exposure,” including (1) a provision that did not
limit Asarco’s obligation to perform work outside the
facility’s boundaries, even if it lacked access (¶ 122);
(2) a paragraph setting forth a limited covenant not to
sue (¶ 214); and (3) other paragraphs setting forth the
scope of the release (¶¶ 216-17). Asarco, 866 F.3d at
1126.
EPA consent decrees are notoriously long and
complicated. Guam’s petition asks this Court to hold
that three specific features present in its own settlement—the absence of an admission of liability, the
U.S.’s reservation of rights, and a release that is conditioned on successful completion of the response action—mean that the settlement did not resolve some
or all of Guam’s liability. Pet. Br. 41-43. But these are
hardly the only potentially relevant features, as the
Ninth Circuit’s decision in Atlantic Richfield’s case illustrates. Guam’s fluid position would force litigants
and the courts to interpret pages upon pages of EPA
consent decrees—a daunting prospect that is further
complicated by the fact that these agreements are
subject to frequent revision and amendment. Adopting Guam’s position thus dooms regulated businesses
to continued uncertainty as to which magic words
relief claims of the United States against ASARCO under
RCRA.” 63 Fed. Reg. 8473 (Feb. 19, 1998 (emphasis added); see
id. (“The consent decree . . . resolves civil penalty claims of the
United States against [ASARCO] under the CWA . . . [and] also
resolves civil penalty and injunctive relief claims of the United
States against ASARCO under RCRA….” (emphasis added)).

11
sufficiently describe the required degree of resolution,
and thus to continued uncertainty about the extent of
their ongoing exposure to CERCLA contribution actions.
This uncertainty is especially pernicious because
the private parties that are most often the target of
CERCLA contribution actions have no ability to affect
the terms of the settlement agreement between another private party and the government. Atlantic
Richfield had no ability back in 1998 to require Asarco
and the EPA to include language that would have
clarified whether the settlement triggered the statute
of limitations for bringing contribution claims. And
settling parties have no particular incentive to push
for clarity, since they can always choose to bring a contribution action within three years. The parties with
the greatest interest in clarity—the defendants in future contribution actions—have no seat at the table.
Indeed, Asarco actually excluded Atlantic Richfield
from its settlement negotiations with the EPA.
ER003046. 4
A bright-line rule that focuses on whether the settlement requires a response action also prevents the
disparate treatment of similarly-situated parties
based on minor, non-substantive discrepancies in the
particular terms of their respective agreements. Contrasting the D.C. Circuit’s decision in this case with
the Ninth Circuit’s decision in Atlantic Richfield’s
case shows why. In each of these cases, EPA ordered
the primary PRP (Asarco and Guam) to investigate
“ER” citations are to the Excerpts of Record (“ER”) filed in Case
No. 18-35934 (9th Cir.).

4

12
contamination at a Superfund site. In each case, EPA
sued that PRP in a complaint seeking injunctive relief, and in each case the PRP entered a judicially approved consent decree with EPA. In each case, that
decree required the PRP to pay civil penalties and to
undertake specific response actions to clean up the respective sites. In each case, the consent decree also
stated that the United States reserved the right to
pursue claims for violations unrelated to the claims in
its complaint; that the settling party would be released from the United States’ claims when it complied with the decree’s requirements; and that the
parties had entered the decree without admitting liability.
Despite these materially identical facts, the Ninth
Circuit’s parsing of the scope of a few scattered provisions led to a different and unpredictable outcome.
Thus, for example, the Ninth Circuit focused on
whether Asarco used the specific word “release” with
respect to injunctive relief, even though the Consent
Decree in substance clearly released the claims for injunctive relief provided Asarco faithfully fulfilled its
commitments.
And more generally, none of the provisions that
Guam says should govern the inquiry have anything
to do with the goals of the statutory provision for CERCLA contribution. The goal is to compensate settling
parties who agree to perform remediations. So it
makes sense to conclude that a settling party has resolved its liability for “some” of a “response action” or
“some” of the “costs” of a “response action,” once it has
agreed to perform that response action or undertake
that cost. And a settling party may then seek

13
contribution for that particular response action or
cost. The manifest purpose of this language is to both
allow and require the settling party, once it knows it
will have to pay for any part of a response (either
through direct performance or by funding EPA’s
cleanup), to seek contribution for that specific part of
the response.
It is worth emphasizing that, when a party resolves its liability for only “some” of a response action
or cost, it acquires a right of contribution only for that
specific response action or cost. Resolving liability for
“some” of a response action does not create a right of
contribution for other potential response actions that
are not required by the party’s settlement. This is an
important distinction for PRPs who, unlike Asarco or
Guam, agree to undertake response actions specific to
particular geographic areas, particular contaminants,
or particular media (like groundwater or soil). Thus,
for example, a PRP’s agreement to undertake response actions to remediate soil at a site would not
trigger its right to seek contribution for a groundwater
cleanup that has not even begun and that might involve different responsible parties. Because many
EPA remediation agreements at particular sites are
phased, the contribution trigger in those cases must
be specific to a particular response action, not sitewide.
The Court has long recognized the advantages of
bright-line rules over fuzzy standards like that proposed by Guam. See Bowsher v. Merck & Co., 460 U.S.
824, 841 n.18 (1983) (“Bright-line rules upon which
the parties’ expectations may be firmly established
are preferable to . . . protracted litigation . . . .”); Fla.

14
Dep’t of Revenue v. Piccadilly Cafeterias, Inc., 554 U.S.
33, 52 (2008) (noting the advantages of a “simple,
bright-line rule instead of [a] complex, after-the-fact
inquiry”). This Court should not endorse a rule that
leads to idiosyncratic results that are impossible for
parties to predict. This is even more critical where this
determination impacts not just the rights of the parties to the Consent Decree, but also the rights of third
parties from whom contribution may be sought. This
Court should adopt the simple, clear, and decisive approach the United States proposes, a rule that is consistent with the text and the purpose of CERCLA.
II.

Guam’s Proposed Rule Will Undermine
the Purposes of CERCLA’s Statute of Limitations for Contribution Claims.

Guam’s rule is also irreconcilable with the policy
rationales underlying statutes of limitations generally, and CERCLA’s contribution statute of limitations specifically. Guam’s rule would indefinitely defer triggering the limitations period, allowing settling
parties who know that they have contribution claims
to delay bringing those claims. And because settling
parties can negotiate the terms of their settlements,
Guam’s rule would create massive opportunities for
gamesmanship and sandbagging. As Atlantic Richfield’s case illustrates, allowing a settling PRP to delay bringing contribution claims for decades is fundamentally unfair to the defendants in those contribution actions. Delay leads to lost witnesses, evidence,
and opportunity for investigation. Further, allowing
parties to pursue contribution claims decades after
promising to undertake response actions undermines

15
CERCLA’s policy of incentivizing prompt cleanups
and erodes judicial efficiency.
Civil statutes of limitations “represent a public
policy about the privilege to litigate,” and “their underlying rationale is to encourage promptness in the
bringing of actions, that the parties shall not suffer by
loss of evidence . . . .” United States v. Marion, 404
U.S. 307, 322 n.14 (1971) (internal citations omitted).
Limitations periods “are founded upon the general experience of mankind that claims, which are valid, are
not usually allowed to remain neglected, they promote
justice by preventing surprises through the revival of
claims that have been allowed to slumber until evidence has been lost, memories have faded, and witnesses have disappeared, and they are primarily designed to assure fairness to defendants.” Id. (citations
omitted). “The theory is that even if one has a just
claim it is unjust not to put the adversary on notice to
defend within the period of limitation and that the
right to be free of stale claims in time comes to prevail
over the right to prosecute them.” Id. Statutes of limitations also ensure that courts are “relieved of the
burden of trying stale claims when a plaintiff has slept
on his rights.” Id.
In the context of CERCLA contribution, it is the
agreement to undertake or fund a response action—
and not a release from liability—that reasonably puts
a settling PRP on notice that it is time to seek contribution from other PRPs. The purpose of the contribution remedy is to obtain contribution for response actions, so it only makes sense that the claim would accrue when the settling PRP understands that it will
be obligated to take a response action. Nothing about

16
the presence or absence of specific terms of a release
from liability from the United States—or any of the
other settlement provisions that Guam discusses—is
at all relevant to the basic question of whether a settling PRP is aware that it has a contribution claim
against a different entity.
Nor is the presence or absence of a release relevant to the prosecution of a settling PRP’s contribution claim. CERCLA already contemplates that settling PRPs will litigate contribution claims before the
final cost of response actions is known, and whether
or not the United States has “cap[ped] the settling
party’s liability.” Cf. Pet. Br. 39. That’s clear from section 113(f)(3)(B) itself, which states that a PRP can
bring a contribution claim once it has resolved its liability for “some” of a response action. CERCLA accordingly permits settling PRPs to litigate the liability percentage of each potential contributor to a particular
response action, and then obtain a declaratory judgment requiring the contributor to pay, on an ongoing
basis, that percentage of the ongoing response costs.
42 U.S.C. § 9613(g)(2). Thus, on the settling PRP’s
side of the balance sheet, there is no policy reason why
Congress would have wanted to delay accrual of a contribution claim pending some supposed perfectly
worded “release” from EPA.
By contrast, letting settling PRPs wait years, or
even decades, before pursuing claims for contribution
will cause immense prejudice to defendants in contribution cases. Under Guam’s proposal, settling PRPs
essentially can elect to trigger the contribution period
at their option. All they have to do is enter into a settlement agreement that requires response actions, but

17
decline to admit liability. Years down the line, if the
settling PRP decides it is time to pursue a claim for
contribution, it can enter into another agreement with
the United States that admits liability, thus starting
the statute of limitations.
This is not a farfetched scenario; when EPA works
with private parties to remediate polluted sites, it is
not a one-agreement-and-you-are-out situation. EPA
and the private party often work hand-in-glove for
years as EPA oversees the response actions, and enter
into multiple successive Administrative Orders on
Consent, Unilateral Administrative Orders, or judicial consent decrees governing the cleanups. Indeed,
courts that follow Guam’s proposed rule have
acknowledged that it permits the settling party to essentially decide whether and when to trigger the statute of limitations. See Bernstein, 733 F.3d at 213 (stating that the settling party and the EPA “may choose
to structure their contract” to resolve liability or not).
A settlement that conditions a “release” on performance might not resolve liability, while a settlement
that does not contain such a limitation could, see Fla.
Power Corp., 810 F.3d at 1003-04, even though the two
settlements are substantively identical, because in
the latter situation the EPA can still bring an enforcement action for nonperformance. Or a settling party
might avoid resolving its liability simply by including
language indicating that the settlement “shall not
constitute any admission of liability.” Id. at 1003.
The consequence for the unwitting nonparty is
that years down the line, after documents are lost and
memories have faded, it may be surprised with an untimely contribution action. That is exactly what

18
happened to Atlantic Richfield. Asarco had worked
with EPA since the early 1980s to investigate the East
Helena Site’s environmental condition. Because
Asarco had leased land to Atlantic Richfield, had acquired the zinc fuming operation in 1972, and had run
the operation itself for at least a decade, it had extensive knowledge of any contribution the zinc fuming
plant made to the Site’s contamination. Throughout
the 1980s and 1990s, Asarco conducted numerous Site
investigations to characterize the contamination at
the Site. Although EPA identified Atlantic Richfield
as a PRP in the late 1980s, Asarco, 866 F.3d at 1114,
neither EPA nor Asarco ever once identified the zinc
fuming operation as a meaningful contributor of any
contamination and never pursued any relief from Atlantic Richfield. ER003800 (Asarco’s calculation of total percent of arsenic contamination attributable to
Atlantic Richfield’s zinc fuming operation was
0.710%).
With the knowledge gathered from its investigations, Asarco in 1998 entered a comprehensive settlement agreement with EPA, in which Asarco undertook to perform a complete remediation of the Site. At
the time it entered this settlement, Asarco was of
course well aware of Atlantic Richfield’s operations at
the Site.
Seven years after entering the 1998 Consent Decree, Asarco filed for bankruptcy. In the bankruptcy
proceedings, Asarco fully acknowledged its obligations, undertaken in the 1998 Consent Decree, to perform response actions and clean up the Site and
agreed to fund that cleanup with a cash payment of
approximately $100 million. The Ninth Circuit held

19
that the bankruptcy settlement, unlike the 1998 Consent Decree, did resolve Asarco’s liability.
In 2012, three years after entering its bankruptcy
settlement, 14 years after committing to undertake a
sitewide cleanup, and forty years after Atlantic Richfield had ceased operating at the Site, Asarco for the
first time contended that Atlantic Richfield’s operation of the zinc fuming plant had contributed to the
pollution and demanded contribution from Atlantic
Richfield for the work that Asarco had originally committed to perform in the 1998 Consent Decree.
Because Asarco waited decades before ever indicating that it believed Atlantic Richfield bore any responsibility for the contamination at the Site, Atlantic
Richfield faced significant prejudice at trial:
-

Atlantic Richfield never had the opportunity
to conduct sampling at the Site to perform
its own investigation of impacts from the
zinc fuming plant because remedial work
was already under way by the time Asarco
brought its claim. Instead, Atlantic Richfield had to rely on isolated data points from
Asarco’s historical sampling.

-

Although these limited data points indicated that the zinc fuming plant did not contribute to the contamination, the court
noted the “sparse historical record” “which
does not include . . . very much in the way of
detailed information that would allow a fact
finder to determine the precise nature and
amount of pollutants that were released to

20
the environment by Asarco’s and Anaconda’s operations.” App. 65 n.10.
-

Asarco’s expert admitted that the historical
record was “meager” and incomplete such
that his allocation method was calculated
“on a more subjective basis.” ER001683:1-6;
1717:23-25.

-

Atlantic Richfield had no opportunity to obtain evidence from witnesses with
knowledge of its historical operations or its
communications with Asarco and EPA during the investigations of 1980s-90s. Atlantic
Richfield’s sole fact witness at trial had only
ever visited the site one time, in 1971. App.
96.

-

And, due to the passage of time, many relevant documents were lost—some destroyed
in a fire, and many of those remaining deteriorated to the point they were illegible.

Asarco’s delay of more than 14 years disadvantaged Atlantic Richfield by unfairly limiting the evidence and witnesses it had access to. By the time
Asarco pursued its claim, the trustee responsible for
the Site had already begun remediation efforts, App.
59, ¶ 67, making any current sampling irrelevant to
establishing the parties’ relative contributions. Had
the case been brought no later than 2001, Atlantic
Richfield would have had better access to data, witnesses, and documents, as well as an opportunity to
investigate the Site itself.

21
Adopting Guam’s proposed rule will lead to similar problems in other cases. As the Eighth Circuit has
observed, an interpretation of § 113 under which a
PRP could “be subject to new private-party claims for
decades” would “frustrate Congress’s intent to assure
that evidence concerning liability and response costs
i[s] fresh . . . and to provide some measure of finality
to affected responsible parties.” See Morrison Enters.,
LLC v. Dravo Corp., 638 F.3d 594, 610 (8th Cir. 2011)
(internal citation omitted)); Fla. Power Corp., 810
F.3d at 1001-09 (laboriously parsing the language of
multiple successive Administrative Orders on Consent and concluding that a settling party’s contribution claim was timely even though it was filed more
than 10 years after remediation began); see also H.R.
Rep. No. 99-253 pt. 1, at 138 (1985), reprinted in 1986
U.S.C.C.A.N. 2835, 2920. As these cases illustrate, allowing parties to commit to perform response actions,
and then to wait decades before alerting other PRPs
of their potential liability for contribution undermines
the purposes of statutes of limitations. It leads to surprise claims against the non-settling PRPs, and deprives them of access to evidence and witnesses to defend those claims.
In addition to undermining the purposes of the
statute of limitations, the result in Atlantic Richfield’s
case also illustrates how Guam’s proposed rule undermines CERCLA’s policies of promoting prompt cleanups and encouraging responsible parties to settle. In
that case, Asarco was rewarded for not performing the
response actions it promised to undertake in 1998 and
ultimately filing for bankruptcy. Had Asarco performed its obligations under the 1998 Consent Decree,
the 2009 bankruptcy court Consent Decree—which

22
the Ninth Circuit determined was the trigger for
Asarco’s limitations period—never would have existed
and Asarco would have had no basis on which to extend the limitations period. By contrast, a rule that
gives a party an immediate right to seek contribution
as soon as it enters a settlement agreement and commits to perform a response action promotes CERCLA’s
policies. A PRP that has stepped forward to commit to
undertake response actions should have an immediate right to seek contribution from other PRPs for that
response action so that it can know as soon as possible
the extent of the liability it will bear and so that it can
recover from those parties before time drags on and
those other parties become insolvent or otherwise
judgment-proof.
CERCLA’s fundamental policy objectives are to
promote timely cleanup of contaminated sites and to
ensure that parties that caused the contamination
pay for its cleanup. As illustrated by Atlantic Richfield’s case and others cited above, Guam’s proposed
rule advances neither of these policies. Allowing a settling PRP to wait years before seeking contribution
does not incentivize a prompt cleanup, and it may often result in a loss of evidence that precludes a reliable determination of which party caused the contamination. For these reasons, the Court should reject
Guam’s proposed rule.
CONCLUSION
The Court should hold that a claim for contribution accrues when a party agrees with the EPA that it
will undertake a response action or cover the costs of
a response action.

23
Respectfully submitted,
ELISABETH S. THEODORE
STEPHEN K. WIRTH
ARNOLD & PORTER KAYE
SCHOLER LLP
601 Massachusetts Ave.
NW
Washington, DC 20001
(202) 942-5000

SHANNON WELLS STEVENSON
Counsel of Record
KENZO S. KAWANABE
BENJAMIN B. STRAWN
ADITI KULKARNI-KNIGHT
DAVIS GRAHAM &
STUBBS LLP
1550 17th St., Suite 500
Denver, CO 80202
(303) 892-9400
shannon.stevenson@dgslaw.com

Counsel for Amicus Curiae
March 31, 2021

